         OFFICE OF INSPECTOR GENERAL

                                 Catalyst for Improving the Environment


Evaluation Report



       Implementation, Information, and
       Statutory Obstacles Impede Achievement
       of Environmental Results from EPA’s
       National Hardrock Mining Framework

       Report No. 2003-P-00010


       August 7, 2003
Report Contributors:                     Carolyn Copper
                                         Tom Reilly
                                         Denise Darasaw
                                         Tina Lovingood
                                         Barry Parker




Abbreviations

AMLT            Abandoned Mine Lands Team
CERCLA          Comprehensive Environmental Response, Compensation, and Liability Act
EIS             Environmental Impact Statement
EPA             Environmental Protection Agency
NEPA            National Environmental Policy Act
NICC            National Interagency Coordinating Committee
NMA             National Mining Association
NMT             National Mining Team
NPDES           National Pollutant Discharge Elimination System
OIG             Office of Inspector General
RCRA            Resource Conservation and Recovery Act




Cover photo:    Photograph of the Coeur d’Alene Mine in Idaho is courtesy of the
                Colorado School of Mines, Department of Chemistry and Geochemistry.
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL




                                         August 7, 2003

MEMORANDUM

SUBJECT:            Implementation, Information, and Statutory Obstacles Impede Achievement
                    of Environmental Results from EPA’s Hardrock Mining Framework
                    Report No. 2003-P-00010


FROM:               Kwai-Cheung Chan /s/
                    Assistant Inspector General
                    Office of Program Evaluation

TO:                 Stephen L. Johnson
                    Acting Deputy Administrator

                    Barry Breen
                    Principal Deputy Assistant Administrator
                    Office of Solid Waste and Emergency Response

Attached is our final report on the evaluation of the Environmental Protection Agency’s (EPA’s)
National Hardrock Mining Framework. Specifically, the purpose of our evaluation was to
determine the results obtained and progress associated with the Agency’s 1997 National
Hardrock Mining Framework.

The report contains findings and recommendations that describe problems the Office of
Inspector General (OIG) has identified and the corrective actions the OIG recommends. This
report represents the opinion of the OIG and the findings contained in this report do not
necessarily represent the final EPA position. Final determinations on matters in this report will
be made by EPA managers in accordance with established audit resolution procedures.

On April 21, 2003, the OIG issued a draft report to EPA for review and comment. We received
the Agency’s response to the draft report on June 3, 2003. At EPA’s request, an additional
2 weeks was provided for the Agency to respond to the draft report. The Agency did not identify
any factual errors in the report and generally agreed that a plan for implementing the Framework
and better interagency coordination were needed. EPA recognized the effort expended by the
OIG in collecting information and developing findings and recommendations, and appreciated
OIG efforts to keep the Agency informed on the progress of our review.
The Agency provided a number of comments on various aspects of our report and on actions it
indicated were taken to implement the Hardrock Mining Framework. We provide a summary
and general evaluation of these comments at the end of this report. We include the full text of
EPA’s comments in Appendix E. Due to the length of the comments and because the Agency
did not directly address each of our recommendations, our responses to each significant
comment are summarized in Appendix F.

Action Required

In accordance with EPA Manual 2750, you are required to provide this office with a written
response within 90 days of the final report date. The response should address all
recommendations. For corrective actions planned but not completed by the response date, please
describe the actions that are ongoing and provide a timetable for completion. Reference to
specific milestones for these actions will assist in deciding whether to close this report in our
assignment tracking system.

We have no objection to the further release of this report to the public. Should you or your staff
have any questions, please contact me at (202) 566-0827 or Carolyn Copper at (202) 566-0829.

Attachment
                    Executive Summary
Purpose
          This review is part of the Office of Inspector General’s (OIG’s) evaluation of
          Superfund mega-sites. The U.S. Environmental Protection Agency’s (EPA’s)
          Office of Solid Waste and Emergency Response suggested that we examine the
          issue of mega-sites due to potentially significant cost implications for the
          Superfund Trust Fund. Because of the high costs and complexities associated
          with cleaning up hardrock mining sites, and the common perception that they may
          account for a large proportion of future mega-sites, we conducted our initial
          evaluation on the Agency’s National Hardrock Mining Framework.

Background
          Hardrock mining can cause significant impacts on the environment, potentially
          affecting ground and surface waters, aquatic life, vegetation, soils, air, wildlife,
          and human health. Hardrock mining involves the extraction of certain metals and
          minerals found in hard formations of the earth. They include, among others,
          copper, gold, iron ore, lead, and silver. EPA estimates there may be as many as
          200,000 abandoned hardrock mines in the United States. As of January 2003,
          87 abandoned hardrock mine sites were on the Superfund National Priorities List.
          EPA estimates it will cost a total of about $2 billion to clean up these sites on the
          list.

          A complex set of Federal and State environmental laws and regulations apply to
          hardrock mining activities. Although EPA can inherit the responsibility for
          cleaning up hardrock mining sites, the Agency is just one of several with a role in
          regulating the environmental impacts associated with hardrock mining.

          In September 1997, EPA issued the National Hardrock Mining Framework to
          provide a multimedia, multistatute approach for handling environmental issues
          posed by proposed, active, and abandoned hardrock mining sites. The overall
          goals of the Framework were to achieve improved environmental protection, use
          resources more efficiently, and promote fiscal responsibility.

Results

          The primary goal of the Hardrock Mining Framework is to protect human health
          and the environment at proposed, active, and abandoned mine sites on both
          Federal and non-federally managed lands through appropriate and timely
          pollution prevention, control, and remediation. EPA spent 3 years developing the
          Framework and it has been available for 5 years. However, we found no evidence
          that the Framework contributed to environmental improvements or protections at
          specific hardrock mining sites. There are regulatory and non-regulatory reasons
          for this.


                                            i
        The nature of hardrock mining regulations, environmental laws and regulations,
        and the manner in which they are implemented present obstacles to what the
        Agency can realistically accomplish in preventing or minimizing the
        environmental impacts of hardrock mining. For example: the Agency has limited
        authority to directly establish up-front pollution controls at hardrock mining sites
        on public or private lands; the Comprehensive Environmental Response,
        Compensation, and Liability Act largely allows the Agency to respond after
        environmental damage has occurred; amendments to the Resource Conservation
        and Recovery Act exempt some mining wastes from regulation; and EPA has only
        an advisory role in the development of environmental impact statements for
        mining operations on Federal lands.

        In addition, EPA did not develop or communicate a strategy for implementing the
        Framework, management did not support it, and there was inadequate
        coordination within the Agency and between EPA and other agencies. Further,
        the Agency does not have current, accurate data on the extent of financial and
        environmental challenges posed by hardrock mining activities to assist
        management in determining appropriate strategies and actions to address existing
        and potential mining sites. Without an adequate implementation strategy,
        accountable offices and management support, profile of hardrock mining impacts,
        internal and interagency coordination, and strengthened EPA authorities, the
        environmental protection goals of the Framework will be difficult to achieve.
        EPA could consider policy and regulatory changes to help achieve the
        environmental goals of the Framework.

Recommendations
        We recommend that EPA program management, led by the Deputy Administrator
        and the Assistant Administrator for the Office of Solid Waste and Emergency
        Response, develop effective implementation strategies for the National Hardrock
        Mining Framework that account for existing gaps in the Framework, lack of
        necessary coordination, and regulatory challenges. The Agency should also
        determine the estimated financial, human health, and environmental impacts
        associated with hardrock mining sites where the Agency currently has primary
        responsibility for handling cleanup as well as hardrock mining sites where there is
        a future likelihood that EPA may have lead cleanup responsibility.




                                         ii
                                       Table of Contents
Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


 Chapters
          1       Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      1
                       Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1
                       Objectives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     1
                       Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1
                       Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                5

          2       Mining Framework Has Had Little Impact in Resolving Human Health
                  and Environmental Concerns at Hardrock Mining Sites . . . . . . . . . . . . . .                                                       7

                       Framework Had Minimal Impact on Health and Environmental Concerns . . . . . . . . 7
                       Framework Was Not Effectively Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
                       EPA Has Limited Authority to Regulate Hardrock Mining Activities . . . . . . . . . . . . . 10
                       Data Gaps Constrain Framework Implementation . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                       Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                       Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
                       Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


 Appendices
          A       National Hardrock Mining Framework Recommendations
                  and Action Items . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         21

          B       National Hardrock Mining Framework Survey Questionnaire . . . . . . . . . .                                                          23

          C       National Mining Association Summary of Comments . . . . . . . . . . . . . . . .                                                      27

          D       Breakout of Survey Responses Regarding Implementation
                  of EPA National Hardrock Mining Framework Recommendations
                  and Action Items . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         29

          E       Agency Response to Draft Evaluation Report . . . . . . . . . . . . . . . . . . . . . . .                                             33

          F       OIG Response to Agency Comments on Draft Report . . . . . . . . . . . . . . . .                                                      45

          G       Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   51




                                                                        iii
                                             Chapter 1
                                              Introduction
Purpose

                  This review is part of the Environmental Protection Agency (EPA) Office of
                  Inspector General (OIG) evaluation of Superfund mega-sites. During our fiscal
                  2001 planning process, EPA’s Office of Solid Waste and Emergency Response
                  suggested that we examine the topic of Superfund mega-sites due to their
                  potential significant cost implications for the Superfund program. Because of the
                  high costs and complexities associated with cleaning up hardrock mining sites,
                  and the common perception that they may account for a large portion of future
                  mega-sites, we conducted our initial evaluation on hardrock mining sites.
                  Specifically, we reviewed results obtained and progress associated with the
                  Agency’s 1997 National Hardrock Mining Framework.1

Objectives
                  We addressed the following questions:

                  •   Are human health and environmental concerns being addressed by
                      implementing the Framework?
                  •   Is the Framework viable under current EPA and governmental authorities?
                  •   Are there gaps or shortfalls in the Framework?

Background
                  Environmental Consequences of Hardrock Mining Can be Significant
                  In its 1999 report, “Hardrock Mining on Federal Lands,” the National Research
                  Council of the National Academy of Sciences (a non-profit research organization
                  that, under Congressional mandate, advises the Federal government on scientific
                  and technical matters) noted that hardrock mining can cause significant impacts
                  on the environment, potentially affecting ground and surface waters, aquatic life,
                  vegetation, soils, air, and wildlife. Mining sites are typically large, complex, and
                  costly to clean up. Many hardrock mining sites have estimated cleanup costs
                  greater than $50 million, which was categorized as a “mega-site” in a 2001 report
                  on the future of the Superfund program by Resources for the Future (a nonprofit
                  research organization).2


         1
          The OIG is also currently conducting a related, but separate, program evaluation of the potential financial
impact of mining mega-sites on the Superfund Trust Fund and on States.
         2
            Resources for the Future’s use of financial criteria to define mega-sites was conventional at the time of
their report. However, this approach does not consider site criteria (e.g., nature of contaminants, number of operable
units, site acreage), risk criteria (e.g., environmental, ecological, and human health), or other factors
(e.g., complexity) in defining mega-sites.
                 Hardrock mining is not coal mining. Hardrock mining involves the extraction and
                 beneficiation (separation of minerals/metals from waste) of certain metals and
                 minerals found in hard formations of the earth. These metals and minerals serve
                 as the primary raw materials for most of the industrial, commercial, and consumer
                 equipment and structures produced by the U.S. economy. The removal and
                 beneficiation result in large quantities of waste (e.g., waste rock, tailings, mine
                 water). The total amount of waste produced can range from 10 percent (potash)
                 to 99.99 percent (gold). Open mine pits, tailings ponds, ore stockpiles, and waste
                 rock dumps can all be significant sources of toxic pollutants, primarily heavy
                 metals such as cadmium and lead. EPA’s Toxics Release Inventory 2000 report
                 indicates that the metal mining industry (metal mining is synonymous with
                 hardrock mining) was the largest toxic polluter in 2000, releasing
                 3.4 billion pounds of toxics, or 47 percent of the total released by U.S. industry
                 (see Figure 1.1).

                 Figure 1.1. Toxics Release Inventory




                     Note:        RCRA = Resource Conservation and Recovery Act
                     Source:      EPA’s Toxics Release Inventory 2000, May 2002




                 EPA estimates there may be as many as 200,000 abandoned hardrock mines in
                 this country. As of January 2003, 87 abandoned mine sites were included on the
                 Superfund National Priorities List. The Agency estimates that it will cost a total
                 of about $2 billion to clean up these sites on the list.3

                 The U.S. Forest Service estimates that approximately 10,000 miles of rivers and
                 streams may have been contaminated by acid mine drainage. Acid mine drainage
                 can occur when iron sulfides in rock are exposed to water and oxygen (see
                 photographs on next page). The process of mining brings sulfide-bearing rock to
                 the earth’s surface, fractures it, and exposes substantial amounts to weathering.
                 The minerals gradually oxidize to form dilute sulfuric acid and ferric hydroxide,
                 resulting in acid mine drainage. When acid drainage occurs, it is extremely


        3
         This does not include sites on Bureau of Land Management land. The Bureau estimates it may cost as
much as $35 billion to clean up contaminated hardrock mine sites on Bureau lands.

                                                       2
                 difficult and costly to control. According to the National Research Council,
                 “improved methods for prediction, prevention, and long-term treatment are
                 needed to minimize the expenses related to acid drainage and to enhance the
                 long-term protection of the environment.”4 Resources for the Future noted that it
                 would be difficult, if not impossible, to achieve water quality standards at some
                 sites due to acid drainage and leaching of mine wastes.5

                 Figure 1.2. Acid mine drainage at Galax, Virginia (left) and
                             Prospect Gulch, Cement Creek, Colorado (right)




                 According to EPA, in recent years, environmental practices employed by the
                 mining industry have improved considerably and reduced the environmental
                 impacts from mining projects. Bureau of Land Management data indicate the
                 number of plans and notices of operations for new mining activities has fallen
                 approximately 50 percent since 1992. Some improvements made in mining
                 operations include best practices for control of storm water runoff, better
                 treatment of wastewater, better management of tailings and waste rock, and more
                 efficient metal recovery technologies. The National Research Council noted that
                 some environmental changes resulting from hardrock mining may actually benefit
                 wildlife, such as creation of mine tunnels that, when later abandoned, can be used
                 by bat communities. Also, reclaimed waste rock sites and other terrestrial
                 changes can provide substantial areas of forage, attracting various wildlife.

                 Multiple Laws and Agencies Involved in Hardrock Mining Activity

                 A complex set of Federal and State environmental laws and regulations apply to
                 hardrock mining activities. The type and size of mining operations; kinds of land,
                 water, and biological resources affected; organization of State and local
                 permitting agencies; and the manner in which Federal and State agencies

        4
         Hardrock Mining on Federal Lands, National Research Council, 1999
        5
          Superfund’s Future: What Will It Cost?, Katherine N. Probst and David M. Konisky, Resources for the
Future, 2001

                                                       3
implement appropriate laws and regulations determine the degree and
effectiveness of regulation. A significant amount of hardrock mining occurs on
Federal lands in the Western States. The U.S. General Accounting Office
estimated that mines on Federal lands in the Western States comprised 30 percent
of all gold and 29 percent of all silver production in the Western States in 1990.

Cleanup of mine sites located on Federally-owned lands is the responsibility of
the Federal agency having jurisdiction over the land, unless those lands become
patented and thus private, at which point the States and/or EPA take over cleanup
responsibility. The General Mining Law of 1872 is the primary statute regarding
hardrock mining on Federal lands. The Federal Land Policy and Management
Act of 1976 for the Bureau of Land Management and the 1897 Organic Act and
1976 National Forest Management Act for the U.S. Forest Service provide
direction for Federal land management.

Development of the National Hardrock Mining Framework

In September 1997, EPA issued the National Hardrock Mining Framework to
provide a multimedia, multistatute approach for handling environmental issues
posed by hardrock mining activities. The key goals of the Mining Framework
were to achieve improved environmental protection, use resources more
efficiently, and promote fiscal responsibility. The number one goal of the
Framework was to protect human health and the environment through appropriate
and timely pollution prevention, control, and remediation. This goal was to apply
to general management approaches at proposed, active, and abandoned mine sites
on both Federal and non-federally managed lands. The Framework included 14
recommendations and 10 action items (see Appendix A). An explicit goal of the
Framework was not to attempt to broaden the Agency’s authorities beyond those
granted by Congress. The Agency believed that the Framework recommendations
were within the scope of EPA’s “responsibility” and would serve as the basis for
achieving its goals. While there is no current consensus, or conventional method
for defining or identifying mine sites, as stated earlier, EPA estimates the number
of hardrock mine sites in the United States to be as many as 200,000.

A need for the Framework was identified in 1994 when the Deputy Administrator
tasked the Office of Water with developing an Agency-wide mining framework.
The Office of Water partnered with the Office of Solid Waste and Emergency
Response, Office of Enforcement and Compliance Assurance, Office of General
Counsel, and the Regions to draft the Framework. In addition, EPA solicited
input from various mining stakeholders, including other Federal agencies such as
Department of Interior’s Bureau of Land Management and Office of Surface
Mining, and Department of Agriculture’s U.S. Forest Service; States, including
Colorado, Montana, and Nevada; tribes; local governments; industry; and
environmental groups, such as the Western Mining Action Project. In June 1997,
OIG issued report E1DMF6-08-0016-7100223, “EPA Can Do More to Help
Minimize Hardrock Mining Liabilities,” which recommended that EPA finalize
and implement its hardrock mining strategy to encourage more effective use of


                                 4
         existing authorities to address hardrock mining issues and strengthen partnerships
         with mining stakeholders.

Scope and Methodology

         We conducted our evaluation from April 2002 to November 2002. To achieve
         our objectives, we administered a survey to EPA National Mining Team members
         in headquarters and regional offices. We sent the survey to 6 headquarters offices
         and 9 of EPA’s 10 regional offices (Region 2 did not participate due to limited
         hardrock mining activity in the region). Four headquarters offices (Office of
         Emergency and Remedial Response, Office of Solid Waste, Office of Site
         Remediation Enforcement, and Office of Federal Activities) and seven regional
         offices (Regions 1, 3, 5, 6, 8, 9, 10) responded to our survey. Since we received
         multiple responses from several regions, we received a total of 16 individual
         survey responses. The survey included questions regarding the status and
         implementation of Framework recommendations and 6 of 10 action items,
         accomplishments, gaps in the Framework, barriers to implementation, and ideas
         for improvement (see Appendix B). We did not verify the accuracy of survey
         responses.

         We also interviewed external stakeholders, including representatives of other
         Federal agencies (Department of Interior’s Bureau of Land Management and
         Office of Surface Mining, Department of Agriculture’s U.S. Forest Service), the
         Western Governors’ Association, National Mining Association (NMA), Mineral
         Policy Center, and Center for Science in Public Participation, to obtain their
         perspectives. NMA also provided extensive written comments on the National
         Hardrock Mining Framework. These are summarized in Appendix C. We did not
         receive written comments from other external stakeholders.

         We reviewed prior reports, including the 1997 OIG report on minimizing
         hardrock mining liabilities, and reports issued by the National Research Council,
         National Academy of Sciences, Resources for the Future, Center for Science in
         Public Participation, and Mineral Policy Center.

         We performed our evaluation in accordance with Government Auditing
         Standards, issued by the Comptroller General of the United States.




                                          5
6
                               Chapter 2
       Mining Framework Has Had Little Impact
    in Resolving Human Health and Environmental
          Concerns at Hardrock Mining Sites
         The primary goal of the National Hardrock Mining Framework is to protect
         human health and the environment at hardrock mining sites through timely
         pollution prevention, control, and cleanup. However, the Framework has had
         little effect in addressing human health and environmental concerns at specific
         mine sites. Without an adequate implementation strategy, management support,
         improved intra- and interagency coordination and cooperation, and strengthened
         EPA authorities, the environmental protection goals of the Framework will be
         difficult to achieve. Gaps in the Framework also create barriers to its
         effectiveness. Current, accurate data on the extent of financial and environmental
         challenges posed by hardrock mining activities is critical to assist management in
         determining appropriate strategies, actions, or programs to address challenges
         posed by hardrock mining. This information is also necessary for decisions
         concerning the viability and relevance of the existing Framework. If current
         program management supports its utility and relevance, EPA could consider
         policy and regulatory changes to help achieve the environmental goals of the
         Framework.

Framework Had Minimal Impact on Health
and Environmental Concerns

         After 3 years of development, EPA issued its Mining Framework in September
         1997. In developing the Framework, EPA demonstrated some commitment to
         environmental goals by working with and obtaining comments from other Federal
         agencies, States, industry, and the environmental community. Ten of the
         15 survey respondents who addressed a question on Framework effectiveness
         considered the Framework to be a useful document that, among other things,
         effectively summarized regulatory and nonregulatory tools, encouraged internal
         and external coordination in dealing with mine sites, and helped to establish
         useful contacts and networks. However, we found that human health and
         environmental concerns at hardrock mining sites have not been addressed through
         implementation of the Framework. Although 67 percent (10 of 15) of EPA
         survey respondents addressing this specific question indicated the Framework had
         been effective in addressing health and environmental concerns, only one of the
         10 respondents identified specific sites that directly benefitted from
         implementation of the Framework. In addition, only one of eight external
         stakeholders identified specific sites that had benefitted from the Framework
         guidance.



                                          7
         Regardless of their affiliation, only one of eight external stakeholders we
         interviewed could identify any environmental progress or impacts associated with
         the Framework. The Mineral Policy Center, an environmental organization,
         considered the Framework to be a “paper policy” that had no real impact at
         hardrock mining sites. Western Governors’ Association officials were not aware
         that EPA’s Framework was being used, nor had heard much about the Framework
         since it was issued in 1997. NMA, representing the mining industry, indicated
         that it had not observed any environmental impacts from implementation of
         EPA’s Framework. NMA believed that the Framework was not needed, since the
         industry was already extensively regulated by other Federal and State agencies.
         U.S. Department of Agriculture officials were not aware of specific
         environmental improvements that could be attributed directly to the Framework,
         although they noted that the Framework appropriately stressed the need for
         agencies to work together to address problems at hardrock mining sites.

Framework Was Not Effectively Implemented

         Lack of An Implementation Plan

         EPA did not articulate a plan or strategy for implementing the Framework once it
         was completed. Although the Framework contained a set of action items to help
         implement Framework recommendations, no timeframes, project milestones,
         priority-setting procedures, outcome measures, or resource needs were
         established. This is particularly important because the Framework has very
         ambitious and broad goals. For example, when EPA was soliciting comments on
         the Framework, at least one other Federal agency noted that “our biggest concern
         is the apparent lack of ranking or priorities of effort....the proposal involves a
         process so enormous and complex that it will clearly drain the very limited
         resources agencies need to conserve for environmental protection.” In addition,
         accountable offices were not specified for several key Framework action items.
         Specifically, no headquarters office was assigned responsibility for developing a
         cross-program mining team, promoting the National Interagency Coordinating
         Committee, or requesting comments on whether a reexamination was warranted
         on the exclusion of certain wastes as “hazardous” wastes under RCRA.

         Agency Management Did Not Adequately Support Framework

         Eleven of 15 (73 percent) survey respondents addressing a question regarding
         Framework barriers (see Appendix B) noted that EPA management did not
         adequately support implementation of the Framework. In addition, due to
         demands associated with a new National Pollutant Discharge Elimination System
         (NPDES) program, Total Maximum Daily Loads rules, and declining resources,
         the Office of Water, the lead EPA office tasked with developing the Framework,
         chose to discontinue involvement with it and the hardrock mining area shortly
         after the Framework was issued. By default, this left the Office of Solid Waste

                                          8
and Emergency Response to essentially assume responsibility for the Framework.
In February 2000, the Regional Administrator for Region 10 sent a memorandum
to EPA’s Deputy Administrator noting a Regional consensus that the Office of
Water assign a headquarters mining team leader to assume the lead in following
up on the recommendations contained in the Framework. We could not find
evidence that any action was taken on the basis of this memorandum.

Lack of Intra- and Interagency Coordination

Our survey results and interviews indicated that there was inadequate
coordination within EPA and between EPA and other Federal agencies regarding
hardrock mining activities. In addition, there are varying priorities among
Federal agencies in relation to hardrock mining issues, and no plans to identify,
acknowledge, and work with the priorities of other agencies. For example, the
Department of Interior’s Office of Surface Mining indicated that safety at
abandoned mine sites was considered to be a higher priority than environmental
protection. The National Research Council study also noted a lack of early,
consistent cooperation and participation by all Federal, State, and local agencies
involved in developing or reviewing Environmental Impact Statements (EISs).
According to the National Research Council, this lack of coordination has
resulted in excessive costs and delays in mine permitting.

Although the Framework recommended promoting a National Interagency
Coordinating Committee on mining, EPA staff told us that there has been little
EPA support for the Committee. The National Interagency Coordinating
Committee was envisioned by EPA’s National Mining Team as a senior
management-level forum for discussing and coordinating varying Federal agency
policies and regulations in the area of hardrock mining. The Committee was to
have included participants from several agencies, such as EPA, Bureau of Land
Management, U.S. Forest Service, Office of Surface Mining, and U.S. Geological
Survey. Although some activity took place at the EPA staff level, personnel in
Regions 8 and 10 said that headquarters had not promoted the Committee, and
Region 9 mining staff were unaware of any work the Committee had done.
According to Office of Solid Waste and Emergency Response representatives, the
Committee’s memorandum of understanding was allowed to lapse and was not
reinitiated.

Framework Recommendations Not Consistently Implemented

Survey respondents indicated that some recommendations and action items were
not fully and consistently implemented. Specifically, as mentioned above, it did
not appear that action had been taken to promote and support the National
Interagency Coordinating Committee, which several respondents deemed crucial
for working with other Federal agencies to prioritize and address environmental
concerns at hardrock mining sites. Similarly, we were told that little action has
been taken to solicit comments on a reexamination of high-risk mine wastes

                                 9
                currently exempt from hazardous waste regulations. In addition, we were told that
                little progress has been made to encourage the reprocessing of mine wastes as a
                component of site cleanups or to provide information to stakeholders on the
                availability of grants for mine site remediation. See Appendix D for a summary
                table of the results.

                On the other hand, our survey responses indicate that some actions have been
                taken on implementing some recommendations and action items. For example,
                EPA regions which have significant hardrock mining activity (i.e., Regions 8, 9,
                and 10) have developed regional mining strategies; the Agency had prepared
                guidance and provided some training on site assessment, investigation, and
                screening tools (e.g., Office of Emergency and Remedial Response issued an
                Abandoned Mine Site Characterization and Cleanup Handbook in 2001); efforts
                have been made to integrate permitting and site evaluation activities where
                possible; regions have encouraged cleanup actions by responsible parties at mine
                sites; and the Office of Water issued a final Clean Water Act 404 rule in May 2002
                that includes a definition for “fill material” in the context of Section 404
                permitting.

EPA Has Limited Authority to Regulate Hardrock Mining Activities

                The nature of hardrock mining laws and regulations and how they are implemented
                present obstacles to what EPA can realistically accomplish in terms of preventing
                or minimizing environmental impacts during the earliest stages of mining
                operations. Although EPA’s explicit goal in developing the Framework was not to
                attempt to broaden Agency authorities, this was not a realistic assumption given
                the Framework’s broad goal to protect human health and the environment at
                hardrock mining sites on Federal lands and at active or proposed hardrock mining
                operations --- where EPA has very limited or no direct regulatory authority.6

                Hardrock mining occurs on both public (i.e., Federal) and private lands, although
                the majority of it occurs on public lands in western States. EPA’s role and
                authority in regulating hardrock mining activities is different on public and private
                lands (see Figures 2.1 and 2.2), and many sites in the western United States have a
                combination of Federal and private ownership, making regulatory efforts that
                much more complex. Further, the Agency has limited authority to directly
                establish up-front pollution controls at hardrock mining sites in order to prevent or
                control environmental impacts. Existing authorities (i.e., Comprehensive
                Environmental Response, Compensation, and Liability Act [CERCLA]) largely


        6
          Ten of 15 survey respondents (67 percent) who addressed the survey question on the viability of the
Framework considered it to be viable or potentially viable under current Agency authorities. That is, most
respondents believed that EPA had the appropriate authority to accomplish the tasks outlined in the Framework. We
did not independently verify whether EPA has the authority to accomplish specific tasks outlined in the Framework.
Rather, we evaluated the likelihood that EPA could achieve the broad goals of the Framework given the
Framework’s objectives and EPA’s authorities.

                                                       10
                 allow the Agency to respond after environmental problems have occurred. Other
                 EPA pollution permitting authorities are delegated to the States through major
                 environmental laws (i.e., Clean Air Act, Clean Water Act, and RCRA).7 However,
                 there are many cases where State permitting and enforcement programs have not
                 been effective for the various environmental programs that have been delegated to
                 the them. In addition, little mining waste is subject to RCRA regulation as
                 hazardous waste. The various authorities that provide EPA some ability to
                 regulate or clean up environmental impacts of hardrock mining are discussed
                 briefly in the following pages.8




         7
          Under the Surface Mining Control and Reclamation Act, States that have coal mining activity may also
receive some funds to remediate safety and environmental hazards at abandoned hardrock mines. The Act
established a Federal mechanism to encourage States to remediate hazardous conditions caused by abandoned coal
mines. After eligible States have completed reclamation of abandoned coal mines, they may use funds under the Act
to remediate environmental hazards at abandoned hardrock mines.
         8
         Generally, these authorities will apply to hardrock mining operations that began after the various laws
were passed and regulations were promulgated. Due to limitations in existing data, it was not possible for us to
determine the percent or number of hardrock mining sites (active or abandoned) that fall outside existing regulations.

                                                         11
Figure 2.1. EPA’s Role in Regulating Hardrock Mining on Public (Federal) Lands




       Mining company                                              Under National
       proposes mine and               Federal                     Environmental Policy Act
       works with Federal              agency                      (NEPA) authorities, EPA
       agency (Bureau of               receives draft              reviews draft EIS and
       Land Management,                EIS and                     provides comments to
       U.S. Forest Service,            forwards it to              Federal agency. EPA’s
       etc.) to prepare draft          EPA for                     ROLE IS ADVISORY and
       EIS.                            comment.                    the Federal agency is not
                                                                   required to include all EPA
                                                                   comments in final EIS.




             Federal Agency                  Site remains under Federal authorities until or
             finalizes EIS and               unless mining company patents or purchases the
             issues record of                site. When a site is patented, the land becomes
             decision. The EIS               private, and generally falls under state authorities.
             may or may not                  Since 1994, there has been a moratorium on
             reflect EPA’s                   patenting land, which has been renewed annually
             comments.                       in appropriations language. The moratorium will
                                             result in retention of land under Federal oversight
                                             and may help limit Federal cleanup liabilities.




Figure 2.2. EPA’s Role in Regulating Hardrock Mining on Private Lands




                                     State may permit the mine and has primary oversight
         Mining company              responsibility (EPA authorities under the Clean Water Act,
         proposes new                Clean Air Act, and RCRA may apply. However, these
         mine to State OR            authorities are generally delegated to the States to
         State assumes               implement.) State retains oversight unless company goes
         oversight for               bankrupt or abandons the site, or State is financially or
         patented land.              technically unable to oversee the cleanup. State may then
                                     request EPA assistance.




                                 EPA may choose to list a site on the Superfund
                                 National Priorities List and clean it up or may
                                 use CERCLA remedial, removal,
                                 enforcement, or other authorities to have a site
                                 cleaned up. EPA’s ROLE IS OFTEN
                                 VIEWED AS THE LAST RESORT to deal
                                 with environmental and health problems that a
                                 mining site poses.
                                 In addition, the Coast Guard has authority for
                                 removal of hazardous substances when
                                 navigable waterways are affected (waters of
                                 the United States, including the territorial sea).




                                        12
                Limiting Factors for EPA: Nature of Environmental Laws
                and Mining Regulations

                The Clean Water Act provides for regulation of discharges of pollutants into U.S.
                waters via the NPDES permit program. An NPDES permit obtained for a mining
                site would establish standards for pollutants discharged from the site. The Clean
                Water Act allows EPA to delegate many permitting, administrative, and
                enforcement aspects of the law to the States, and all but four States have been
                authorized to administer the NPDES program.9

                RCRA is designed to ensure that solid wastes (including hazardous wastes) are
                managed in a manner that is protective of human health and the environment.
                RCRA has rulemaking designed to determine which mining wastes should be
                regulated as “hazardous waste.” As a result of the 1980 RCRA Bevill amendment
                and subsequent EPA action regarding waste produced from the extraction,
                beneficiation, and processing of ores and minerals, relatively little mining waste is
                subject to RCRA regulation as hazardous waste.

                Under the National Environmental Policy Act (NEPA), Federal agencies prepare
                EISs for major actions that can have a significant effect on environmental quality,
                such as a mining operation. EPA can comment on EISs developed by other
                agencies but cannot compel other agencies to address EPA concerns during the
                EIS and permitting process. When other agencies finalize an EIS for mine sites,
                these sites generally remain under the other agencies’ authorities until the mine
                land is patented (purchased), when they become private land and States assume the
                lead role in regulating them. (As noted in Figure 2.1, since October 1994, there has
                been a moratorium on patenting land.)10

                The Clean Air Act gives EPA authority to set national standards to protect human
                health and the environment from emissions that pollute ambient (outdoor) air. The
                Act assigns primary responsibility for ensuring adequate air quality to the States
                and not EPA. Generally, pursuant to the Clean Air Act, States require permits at
                most hardrock mining operations. These permits may include controls for fugitive
                dust, particulate matter, sulfur dioxide emissions, certain metals, and




         9
          In an August 2001 review, the National State Auditors Association found that several States had not
effectively administered some aspects of their water programs.
         10
            Information provided to us from Western Governors’ Association officials indicates that the Association
recommended that EPA become more involved in mine permitting from the beginning of the process, rather than at
later stages, when the Agency’s participation might be disruptive and could lengthen the process. In addition, the
National Research Council observed that active stakeholder participation through the NEPA process rarely occurred
in a timely fashion, and noted that the decisionmaking process was more effective the earlier that joint involvement
occurred.

                                                         13
                volatile organic compounds. Again, EPA would not have a primary regulatory
                role where States are delegated authority.11

                CERCLA authorizes EPA and other Federal agencies to respond to environmental
                threats at mineral mining and processing sites through emergency removal actions
                and longer-term site remediation or cleanup.12

                Other Federal agencies, including the Bureau of Land Management, U.S. Forest
                Service, and National Park Service, have authority for helping to prevent
                environmental degradation at hardrock mining sites. However, prior research has
                shown that land management statutes and regulations for ensuring environmentally
                responsible resource development had not been consistently implemented by
                Federal agencies.13

                Other Limiting Factors for EPA: Financial Assurance Requirements

                Financial assurance, or the amount of money mine owners or operators are
                required to provide for cleanup in the event of owner bankruptcy or mine
                abandonment, is regulated by the States. Inadequate financial assurance for
                hardrock mine cleanup has resulted in higher costs to Superfund and EPA. Some
                States set a ceiling on the amount of financial assurance that they will collect.
                Also, some States base the amount of financial assurance on the number of acres of
                land disturbed, rather than on potential environmental damage. In addition,
                CERCLA may have the unintended effect of imposing an artificial limitation on
                the amount of financial assurance States may require. CERCLA 104(c)(3)(C)
                requires that States fund 10 percent of the cost of an EPA-financed cleanup. States
                may be motivated to require only that amount of financial assurance that would
                cover 10 percent (the State share) of the estimated cleanup costs, rather than
                require financial assurance for the total estimated costs. While we have not



        11
           Not all States may exercise this authority properly, as shown by a March 2002 Legislative Auditor for the
State of Louisiana report that the State’s Department of Environmental Quality had not inspected 15 percent of all
major source air facilities for a period of 3 years or more, and that 22 percent of sampled required self-monitoring
reports required under facility permits had not been submitted to the Department.
        12
           CERCLA’s long-term liability provisions can be a disincentive to voluntary cleanup of abandoned mine
sites by new mine operators. Consequently, voluntary cleanup opportunities are missed, Federal liability remains,
and undisturbed lands may be selected instead for new mining operations. Although the Western Governor’s
Association has proposed Good Samaritan legislation to protect voluntary parties from liability for continuing
discharges at abandoned mine sites, a representative in the Agency’s Office of Water told us the Agency had not
been actively involved in discussions regarding this potential legislation.
        13
           In its 1999 report, the National Research Council noted that implementation could be improved by better
information management. For example, there was a lack of data needed to characterize lands available for mineral
development and to track mining and regulatory compliance. The National Research Council also found a need for
better understanding of current laws and regulations and improved efficiency in completing environmental reviews
under NEPA and issuing operating permits. Ultimately, it appears other Federal agencies have experienced the same
types of problems that have hampered EPA’s effective implementation of the Framework.

                                                         14
         conducted an independent review of this, an obvious incentive is that by requiring
         less financial assurance, a State may attract more mining companies, resulting in
         more jobs and additional tax revenue for the State.

Data Gaps Constrain Framework Implementation
         Based on our analysis of survey responses and information obtained from
         interviews, we determined that there are gaps in the Framework. These gaps
         impede EPA efforts to understand and address the environmental problems posed
         by hardrock mining activities and achieve desired environmental improvements or
         protections.

         A lack of data regarding the financial and environmental impacts of hardrock
         mining makes it difficult to determine appropriate management strategies and
         actions to address potential problems. A key implementation action in the
         Framework involves collecting information to determine the extent and
         significance of mining activity. However, these actions have not occurred
         systematically: only three of the seven regions (8, 9, and 10) that completed our
         survey developed Mining Strategies as recommended in the Framework, and only
         Regions 9 and 10 had developed regional Mining Profiles. However, information
         included on inactive and abandoned mines in the profiles as recommended in the
         Framework was limited. In addition, the profiles had not been updated since they
         were first completed (1996 for Region 10 and 2000 for Region 9). In its 1999
         report, the National Research Council also noted a lack of reliable information
         regarding mining on Federal lands. In addition, the NMA told us that the
         Framework does not accurately portray the current hardrock mining industry.
         They said the Framework needs to be updated because it cites historical impacts of
         mining and implies that these exist at currently operating mines.

         Also, the Framework did not mention the importance of considering future land
         use at mine sites when planning for reclamation. The National Research Council
         has stated that reclamation decisions should carefully weigh potential future uses
         of mine lands.

Conclusions

         EPA’s Hardrock Mining Framework was considered by many of those surveyed
         and interviewed as having program management value. The Framework was seen
         as a useful guidance document, coordination mechanism, and educational tool for
         helping to deal with the environmental concerns posed by some hardrock mining
         activities. The Framework is considered a substantial improvement over previous
         fragmented efforts to deal with the impacts of hardrock mining. However,
         although EPA spent 3 years developing the Framework to help address human
         health and environmental concerns posed by hardrock mining, and the Framework
         has been available for 5 years, we found little evidence that the Framework



                                          15
        contributed to environmental improvements or protections at specific hardrock
        mining sites.

        There are regulatory and nonregulatory reasons why the Framework has been
        unable to demonstrate environmental results. Addressing and resolving the
        regulatory and nonregulatory issues will provide a more realistic context for
        determining the current likelihood of achieving environmental goals associated
        with the existing framework. Specifically:

        •   Although EPA was perceived to have adequate authority to implement the
            Framework, the nature of hardrock mining and environmental laws and
            regulations and the manner in which they are implemented present obstacles
            to what the Agency can realistically accomplish in preventing or minimizing
            the environmental impacts of hardrock mining.

        •   EPA did not provide an effective strategy for implementing the Framework,
            management did not support it, and there was inadequate coordination within
            the Agency and between EPA and other agencies.

        •   Current, accurate data on the extent of financial and environmental challenges
            posed by hardrock mining activities is needed to assist management in
            determining appropriate strategies and actions to address existing and
            potential problems and to consider the viability and relevance of the existing
            Framework.

        The Agency could consider modifying existing policies and regulations to help
        achieve the environmental protection goals of the Framework if current program
        management supports the utility and relevance of the Framework.

Recommendations

        Because the Agency indicated in its response to our draft report that the
        Framework has current utility in helping to achieve the goals of protecting human
        health and the environment at hardrock mining sites, and they acknowledged that
        effective implementation of the Framework requires the participation of several
        EPA program offices, we recommend that:

        2-1.   The Principal Deputy Assistant Administrator for Solid Waste and
               Emergency Response, consistent with key implementation actions
               identified in the 1997 Framework, determine the estimated financial,
               human health, and environmental impacts associated with hardrock
               mining sites where the Agency currently has primary responsibility for
               handling cleanup (EPA-lead National Priority List sites), as well as
               hardrock mining sites where there is a future likelihood that EPA may
               have lead cleanup responsibility, such as sites with no other plausible lead,
               including a potentially responsible party lead. In addition, at minimum,
               EPA should indicate which Regions have relatively substantial hardrock

                                        16
                mining activity and the status of mining operations or sites in these
                Regions (e.g., active, inactive, abandoned).

         2-2.   The Acting Deputy Administrator direct the relevant EPA offices to
                develop effective implementation strategies that account for existing gaps
                in the Framework, lack of necessary coordination, and regulatory
                challenges. Specifically address:
                (a) Lack of a Framework implementation plan.
                (b) Lack of internal and external Agency coordination among key
                    stakeholders in hardrock mining.
                (c) Lack of accountable and lead offices, Framework milestones, and
                    performance measures.
                (d) Limits in EPA regulatory authority, including those posed by
                    provisions or implementation of existing environmental statutes
                    (e.g., RCRA) that may hinder progress in achieving environmental
                    goals of the Framework at hardrock mining sites.

Agency Comments and OIG Evaluation

         In its response to our draft report, EPA management indicated that the Hardrock
         Mining Framework has utility. They partially agreed that the Agency lacked
         current, accurate data on the extent of financial and environmental challenges
         posed by hardrock mining activities. EPA agreed that it had not been successful
         in implementing the National Interagency Coordinating Committee and that an
         implementation plan for the Framework was needed. The Agency also agreed
         that it has limited authority to regulate solid waste from mining because of the
         Bevill amendment to RCRA.

         The Agency did not respond to our recommendation on the need for accountable
         and lead offices, milestones, and performance measures for implementing the
         Framework. We believe the Agency needs to take action on our
         recommendations to develop effective implementation strategies and plans and
         determine the estimated financial, human health, and environmental impacts
         associated with hardrock mining sites where the Agency currently has primary
         responsibility for handling cleanup as well as hardrock mining sites where there is
         a future likelihood that EPA may have lead cleanup responsibility.

         EPA did not disagree that it was useful to examine the current utility of the
         Hardrock Mining Framework and concluded that the Framework has utility.

         The Agency partially agreed with Recommendation 2-1 and our conclusion that
         EPA lacked current, accurate data on the extent of financial and environmental
         challenges posed by hardrock mining activities. Specifically, Agency officials


                                         17
agreed that they need to improve their understanding of the number, location, and
scope of high-risk abandoned mine lands. Except for abandoned mine lands, the
Agency believes it has enough information documenting the nature and scope of
environmental impacts from mining. Further, the Agency stated that the
Framework did not identify the collection of this type of information as critical
for implementing its mining program. However, the Framework did recommend
collecting information that we consider critical for developing strategies for
addressing environmental concerns at hardrock mining sites. For example, the
Framework recommended:

•   Developing and periodically updating regional mining profiles to assess the
    scope of mines in the regions, identifying environmental issues, and
    understanding the concerns and capabilities of regional stakeholders
    (Implementation Action #3).

•   Promoting improvement of scientific tools for evaluating the impacts of mine
    sites (Recommendation #1).

•   Evaluating the adequacy of EISs in predicting the long-term impacts of
    mining operations (Recommendation #11).

•   Working with stakeholders to develop methods for characterizing and
    analyzing environmental impacts of mine sites and predicting and verifying
    acid mine drainage and metals mobility (Recommendation #14).

In addition, the Agency stated that it had collected a significant amount of
information on the environmental impacts from mining under various EPA
programs. This includes:

•   environmental impact data on National Priorities List mine sites;
•   updated mining impact data in Land Disposal Restriction Phase IV technical
    background documents;
•   characterization of mining impacted waters when issuing mine site NPDES
    permits;
•   evaluation of the potential for adverse environmental impacts during
    section 309 review of mine site EISs;
•   characterization of radiological impacts of mining on Navajo lands; and
•   information on environmental releases from mine sites through the Toxics
    Release Inventory program.

This information may be useful to the Agency for a variety of regulatory or
planning purposes. However, the Mining Framework identified additional data
requirements, as cited above (e.g., predicting and verifying acid mine drainage,
updating regional mining profiles) that still need to be addressed.



                                 18
The Agency agreed with Recommendation 2-2 (a), that an implementation plan
for the Framework was needed and indicated that it was currently developing a
plan and expected to complete it by December 2003. Despite their agreement
with us, the Agency made several comments regarding Framework
implementation that send a mixed message on the Agency’s position. For
example, on page 1 of its response, the Agency indicated that the Framework was
considered to be “self-implementing,” while on page 2, the Agency noted that the
National Mining Team (NMT) recognized that implementation of the Framework
would be better served by creating a group dedicated to cleanup and
redevelopment of abandoned mine lands. We believe that the Agency is correct
in developing an implementation plan and should be sending a consistent
message.

Regarding Recommendation 2-2 (b) to address lack of internal and external
Agency coordination, the Agency indicated that it engaged in some coordination
activities, as follows:

•   established a National Mining Team of cross program mining experts from
    headquarters and regional offices and conducted monthly conference calls;

•   formed regional mining teams in Regions 8, 9, and 10; and

•   organized and convened interagency national mining meetings (Fed Fest)
    every 3 years since 1998.

The Agency acknowledged that it had not been successful in implementing
meetings of the National Interagency Coordinating Committee (NICC), although
it considered this senior level forum for overarching mining issues to have merit.
The NICC was considered by several NMT members as crucial for effectively
communicating and coordinating with other Federal agencies on hardrock mining
issues. The Agency indicated it would interact with the Federal land management
agencies to further evaluate the idea of an NICC, but did not provide timeframes
or milestone dates and did not indicate it would ultimately support the NICC.
Given the major role other Federal agencies play in managing or permitting
hardrock mining operations, EPA needs to indicate when the interagency
evaluation of the NICC will be completed and when it will make its final
decision regarding the NICC.

EPA did not respond to Recommendation 2-2 (c) on the need for accountable and
lead offices, milestones, and performance measures for implementing the
Framework. Since the Agency indicated the Framework has utility, and it is
developing an implementation plan, the Agency needs to specify responsible
offices, milestone dates, and measures or indicators by which it will demonstrate
effective implementation of the Framework.



                                19
Regarding Recommendation 2-2 (d), the Agency stated that it continues to assess
how to more effectively exercise existing authorities to be environmentally
preventive, instead of relying on its cleanup authority under CERCLA. EPA
acknowledged that it has limited authority to regulate solid wastes from mining
because of the Bevill amendment to RCRA. The Agency indicated that it has
broader regulatory authority over mining activities under the Clean Water Act and
Clean Air Act. EPA did not address the fact that authority under the Clean Water
Act and Clean Air Act has largely been delegated to the States and that there have
been problems with some State programs. The Agency also did not indicate how
it plans to deal with current limits in its authority, especially those imposed by the
Bevill amendment, and weaknesses in State water and air programs. EPA needs
to indicate how it will evaluate methods for more effectively exercising its
existing authorities, identify which offices are responsible for this, and provide
milestone dates or timeframes.

Because the Agency considers the Framework to have current utility,
Recommendation 2-3 contained in the draft report no longer applies.

The full text of EPA’s comments (with reference numbers to our responses) are in
Appendix E. Our responses to significant comments that are not addressed above
are summarized in Appendix F. In its detailed comments, the Agency provided
numerous examples of activities, actions, or environmental results it believes are
attributable to implementation of the Mining Framework. Where our data
indicated that a Framework recommendation or action item was implemented, or
that an environmental result is attributable to the Framework, we reported it.
Generally, Agency statements that framework recommendations or actions were
implemented, and results attributable to the Framework were achieved, could not
be supported by our data.

Although EPA stated that it has taken steps to implement each of the 14
Framework recommendations, it did not indicate actions taken to address
implementation action items (6) through (10). We request that the Agency
indicate what actions are planned or have been taken to address these action
items.




                                  20
                                                                                Appendix A

             National Hardrock Mining Framework
             Recommendations and Action Items
Recommendations

Achieving Improved Environmental Protection

  1. Promote improvement of scientifically-based predictive tools (e.g., acid mine drainage
     and metals mobility) used in evaluating the environmental impacts of mine sites.

  2. Integrate NPDES permitting and NEPA site evaluation activities, where EPA has
     jurisdiction.

  3. Promote an adequate consideration of environmentally protective standards and preferred
     alternatives in EISs.

  4. Evaluate the adequacy of current waste management practices and promote standards of
     practice that achieve risk-based, long-term environmental goals.

Using Resources More Effectively

  5. Promote utilization of a geographic/risk-based approach to prioritize inactive/abandoned
     mine cleanup.

  6. Use targeted enforcement/compliance approaches to better focus resources on highest
     priority operations.

  7. Work with the Army Corps of Engineers to consistently define “fill” and to apply the
     waste treatment exclusion.

  8. Prepare guidance and provide training on CERCLA site assessment, investigation, and
     screening tools.

  9. Compile and update information regarding grants available to fund remediation projects
     and distribute to stakeholders.

Promoting Fiscal Responsibility

 10. Encourage development of cost-effective environmental control technologies for both
     active and inactive mine sites.

 11. Evaluate the adequacy of mining EISs with regard to the provision of financial assurance
     for long-term support of environmental management systems.


                                             21
   12. Encourage reprocessing of historic mine wastes in conjunction with or as a component of
       site cleanup.

   13. Develop or support legal/administrative mechanisms to encourage implementation of
       environmentally beneficial response actions at mine sites (e.g., Good Samaritan).

   14. Work cooperatively to develop standardized methods for characterizing/analyzing
       environmental concerns, predicting geochemical changes, and establishing performance
       standards.

Action Items14
    1. Regions form cross-program mining teams and establish Regional Mining Coordinators.

    2. Headquarters establish a cross-program mining team.

    3. Develop Regional Mining Profiles, meet with stakeholders to gather relevant data.

    4. Develop Regional Mining Strategies to guide mining program improvements.

    5. Headquarters promote the National Interagency Coordinating Committee on Mining as a
       forum for development of consensus approaches to critical technical and policy issues.

    6. EPA sponsor periodic workshops on the “toolbox” approach to foster innovative problem
       solving, technology transfer, and stakeholder involvement.

    7. Regions sponsor workgroups for methodology development for mine site
       characterization.

    8. Regions hold workshops on Good Samaritan, reprocessing/remining, or
       legal/administrative obstacles.

    9. Regions screen/prioritize upcoming mining EISs and become actively involved in all
       major mining EISs.

   10. Headquarters requests comments on whether a reexamination of high risk Bevill wastes
       is warranted for future RCRA Land Disposal rulemakings. Consider revival of Policy
       Dialogue Committee.




        14
           To limit the amount of time required by respondents to complete our survey questionnaire, we asked them
to provide information on the progress made on Framework action items 1, 2, 3, 4, 5, and 10. The survey
respondents did not provide any comments or information on the action items we did not include (6, 7, 8, and 9).

                                                       22
     Appendix B




23
24
25
26
                                                                                   Appendix C

                       National Mining Association
                         Summary of Comments
The National Mining Association (NMA) submitted extensive comments to OIG regarding
EPA’s National Hardrock Mining Framework. NMA’s comments are summarized below.

• NMA considered the Framework to be essentially a command-and-control strategy designed
  to position EPA as the “lead agency” for any environmental matter involving hardrock
  mining. The document did not recognize the leading role played by States and other Federal
  agencies in regulating potential environmental concerns related to hardrock mining. There
  was no discussion of State and Federal mining and reclamation programs and State agencies
  having primacy over several environmental programs, such as the Clean Air Act and Clean
  Water Act.

• NMA indicated that the Framework did not appear to be reasonable or necessary. The
  Framework failed to recognize how environmental concerns are already being addressed by
  numerous other Federal and State regulatory programs. NMA believed EPA should have a
  secondary or support role to the other Federal and State agencies and to assist if, and when,
  called upon.

• The Framework unfairly focused on an industry already extensively regulated in many
  environmental media areas, including air, water, waste management, and site reclamation and
  closure. Most current environmental protection activities at hardrock mine sites are being
  done voluntarily or under State or local programs.

• The Framework should not have suggested an expansion of EPA’s authorities in the area of
  hardrock mining and should have adhered to its stated purpose, that is, understanding and
  improving the use of existing authorities to address environmental concerns posed by
  hardrock mining. As an example, the Framework suggested reexamining “high-risk” Bevill
  mining wastes with the possibility of including such wastes under RCRA Subtitle C -
  hazardous waste regulation. NMA strongly believed that this would be an unwarranted
  expansion of EPA authority.

• The Framework did not accurately portray the modern hardrock mining industry and did not
  describe the true effect the Framework could have on the economic health of the industry.
  The document cited historical impacts of mining and inferred that such impacts exist at
  currently operating mines. NMA noted that many mining sites on the Superfund National
  Priorities List were historic mining sites which were never regulated under existing local,
  State, and Federal law. NMA said that the programs of other Federal and State agencies
  adequately address the potential impacts at current sites.

• NMA indicated that the Framework should include more information on the benefits derived
  from hardrock mining.




                                               27
28
                                                                                                         Appendix D

      Breakout of Survey Responses Regarding
   Implementation of EPA National Hardrock Mining
   Framework Recommendations and Action Items
Recommendations
                                                                                        No. of surveys
                                                                                          where no
                                                                     No. of surveys     response was      No. of surveys
                                                   No. of surveys   where it did not   given, response     where it was
                                                 indicating efforts appear efforts      was “N/A,” or     unclear efforts
                                                   were made to      were made to      survey question     were made to
                                                    implement         implement            was not          implement
    Survey Question/Recommendation               recommendation recommendation            addressed      recommendation

(1) What has EPA headquarters (or your                  8                                    6                  2
region) done to promote improvement of
scientifically-based predictive tools used to
evaluate environmental impacts of mine sites?
(2) What has EPA (or your specific region)              5                  2                 9
done to integrate permitting and NEPA site
evaluation functions in those States where
EPA retains NPDES responsibilities?
(3) What has EPA headquarters (or your                  6                  2                 8
specific region) done to promote an adequate
consideration of environmentally protective
standards and preferred alternatives at
proposed mine sites during EIS development?
(4) (a) What has EPA headquarters (or your              2                  2                 12
specific region) done to evaluate the adequacy
of current mine waste management practices?
(4) (b) What has EPA headquarters (or your              5                  2                 9
specific region) done to promote standards of
practice that achieve risk-based, long-term,
environmental protection goals?
(5) What has EPA headquarters (or your                  5                  1                 9                  1
specific region) done to promote use of
geographic/risk-based approaches to
determine priorities for inactive and
abandoned mine reclamation?
(6) How has EPA headquarters (or your                   6                  3                 7
specific region) used targeted enforcement
and compliance approaches to focus resources
on the highest priority mining operations?
(7) (a) Has EPA coordinated with the Army               1                  5                 10
Corps of Engineers to: Develop a consistent
approach to defining “fill material” (in
context of Section 404 permitting)?




                                                            29
                                                                                         No. of surveys
                                                                                           where no
                                                                      No. of surveys     response was      No. of surveys
                                                    No. of surveys   where it did not   given, response     where it was
                                                  indicating efforts appear efforts      was “N/A,” or     unclear efforts
                                                    were made to      were made to      survey question     were made to
                                                     implement         implement            was not          implement
    Survey Question/Recommendation                recommendation recommendation            addressed      recommendation

(7) (b) Has EPA coordinated with the Army                                   5                 11
Corps of Engineers to: Determine
applicability of waste treatment exclusion to
certain mining activities?
(8) What guidance and training have been                 9                                    7
provided to State and Federal agencies on the
use of CERCLA site assessment,
investigation, and screening tools for mine
sites?
(9) What has your region done to provide                                    2                 13                 1
information to site management partners on
grants available for mining remediation
projects?
(10) How has headquarters (or your specific              7                                    9
region) encouraged development of cost-
effective environmental control technologies
for active and inactive mines?
(11) What has EPA headquarters (or your                  4                  2                 8                  2
specific region) done to evaluate the adequacy
of EISs for mining operations in predicting
long-term environmental impacts of mining
operations?
(12) What has EPA headquarters (or your                  3                  3                 8                  2
specific region) done to encourage
reprocessing of historic hardrock mine wastes
in conjunction with, or as a component of, site
cleanup?
(13) What legal and administrative                       6                  1                 8                  1
mechanisms has EPA developed to encourage
implementation of environmentally beneficial
response actions at mine sites?
(14) How has EPA headquarters (or your                   5                  1                 9                  1
specific region) worked with other mining
stakeholders to develop standardized methods
for characterizing and analyzing
environmental impacts at mine sites,
predicting and verifying acid mine drainage
and metals mobility, and establishing
environmental performance standards?




                                                             30
Action Items
                                                                                         No. of surveys
                                                                                           where no
                                                                      No. of surveys     response was     No. of surveys
                                                    No. of surveys   where it did not   given, response    where it was
                                                  indicating efforts appear efforts      was “N/A”, or    unclear efforts
                                                    were made to      were made to      survey question    were made to
                                                     implement         implement            was not       implement the
       Survey Question/Action Item                   action item       action item         addressed        action item

What has headquarters done to establish a                7                  2                 7
cross-program mining team to foster effective
working relationships with stakeholders at the
national level (including other Federal
agencies) and provide appropriate support to
the regions?

What steps has headquarters taken to promote             1                  8                 7
the National Interagency Coordinating
Committee on mining as a forum to develop
consensus approaches to critical technical and
policy issues?

What has headquarters done to solicit                    1                  2                 9                 4
comments on whether a reexamination of
high-risk Bevill wastes is warranted with the
possibility of bringing some high-risk waste
streams under Subtitle C in a future
rulemaking?

If your region has significant mining activity,          6                  1                 9
what has the region done to establish a
Regional Mining Coordinator and cross-
program mining team?

If your region has significant mining activity,          2                  3                 10                1
what has your region done to develop a
Regional Mining Profile to assess the scope of
proposed, active, and inactive and abandoned
mines in the region?

If your region has significant mining activity,          3                  2                 11
what has your region done to develop
Regional Mining Strategies to guide mining
program improvements?




                                                             31
32
                                                                                     Appendix E

        Agency Response to Draft Evaluation Report


                                           June 3, 2003


MEMORANDUM

SUBJECT:       Response to the Office of Inspector General’s Evaluation Report entitled
               “Implementation, Information, and Statutory Obstacles Impede Achievement of
               Environmental Results from EPA’s National Hardrock Mining Framework”

FROM:          Marianne Lamont Horinko/s/
               Assistant Administrator

TO:            Kwai Cheung-Chan
               Assistant Inspector General
               Office of Program Management

   This memorandum transmits the consolidated response from the Office of Solid Waste and
Emergency Response (OSWER), EPA National Hardrock Mining Team (NMT), the Office of
Research and Development (ORD), the Office of Radiation and Indoor Air (ORIA), the Office of
Federal Activities (OFA) and the Office of Water (OW) on the Office of Inspector General’s
(OIG) Draft Evaluation Report entitled “Implementation, Information, and Statutory Obstacles
Impede Achievement of Environmental Results from EPA’s Nation Hardrock Mining
Framework,” dated April 21, 2003. We would like to convey our appreciation for the
significant effort the OIG staff put into gathering information, developing findings and providing
recommendations. Additionally, we appreciate the time the OIG staff spent with us discussing
their progress during the course of the review.

   In reviewing the draft, we are concerned that there is a misunderstanding as to the goals of the
National Hardrock Mining Framework. Section 1.4 of the Framework stated, “This EPA
Hardrock Mining Framework is intended primarily to assist EPA staff in implementing an
effective multi-media/multi-statute mining program.” When the Agency issued the Framework
in 1997, we believed that it was self-implementing and as a consequence resulted in the: 1)
coordination of agency-wide technical skill and financial resources to assure better decision
making; 2) preparation of mine waste guidance documents; 3) coordination of mine waste
research; and 4) coordination of mine waste issues with other federal agencies. {See OIG
response 1, Appendix F}




                                                33
   The OIG report should have noted these accomplishments resulting from our implementation
of the Framework. These accomplishments have improved federal decisions and coordination at
specific sites and have led to environmental improvement and reduced liability.

Examples of the implementation of the Framework are:

• The Agency, in1998, established the NMT comprising cross-program mining experts from
  headquarters and regional offices. Since its establishment, the NMT has conducted 50
  monthly conference calls to coordinate and provide technical expertise for mine permitting,
  the review of Environmental Impact Statements (EISs), and Superfund site characterization
  and cleanup activities. This was the first self-directed, multi-program EPA team and
  continues to serve as the main clearinghouse for all national and international mining related
  issues.

• The NMT realized, in 2000, that implementation of the Framework would be better served by
  creating a group solely devoted to the cleanup and redevelopment of Abandoned Mine Lands
  (AMLs). Prior to the OIG initiating its study, the Office of Emergency and Remedial
  Response (OERR), in 2001, had already created the Abandoned Mine Lands Team (AMLT),
  a subgroup of the NMT. Furthermore, the AMLT initiated the development of an action plan,
  which has led to the issuance of specific guidance for the characterization and cleanup of
  AMLs. The AMLT is currently working with the Superfund Revitalization Initiative (RI) and
  the Brownfields program to promote the redevelopment and reuse of AMLs. Working with
  these programs, the AMLT identified 4 redevelopment pilot initiatives at mining sites and
  developed a definition of “Mine Scarred Lands” to maximize Brownfields funding
  opportunities at mine sites. Finally, EPA Region 7 is cooperatively working with US DOT
  and Missouri DOT to reuse mine waste materials (chat) from the Jasper County Superfund
  site as interstate highway roadbed material. {See OIG response 2, Appendix F}

• The CERCLA Program has addressed or is in the process of addressing 87 AML sites on the
  National Priorities List. The program has also undertaken hundreds of removal actions at
  AMLs sites. Since 1998, the NMT has provided technical input at over a dozen active and
  inactive mining sites. For instance, the NMT and the AMLT have provided expertise and
  input to the Superfund alternative site initiative at the Copper Basin Mine site in Tennessee
  and the Rio Tinto and Anaconda Mine Sites in Nevada . {See OIG response 3,
  Appendix F}
• EPA Regions 8, 9, and 10, formed regional mining teams in 1998. These cross-programmatic
  regional teams, as envisioned in the Framework, have not only developed two to three year
  self implementation plans but they have also developed critically important mining guidance
  such as Region 10's EPA and Hardrock Mining: A Source Book for Industry in the Northwest
  and Alaska. Since 1999, Regions 8 &10 mining teams meet annually with the Bureau of
  Land Management (BLM), US Forest Service (USFS), Mining Industry, Tribes and States to
  coordinate mining activities on a cross program regional basis in order to better coordinate
  federal decision making at mine sites. {See OIG response 4, Appendix F}

• As a natural outgrowth of the Framework, the NMT organized and convened interagency
  national mining meetings (Fed Fest) every three years since 1998 to better coordinate each
  agency’s mining programs. {See OIG response 5, Appendix F} These meetings have


                                               34
  become the main forum to share interagency experience and expertise on mining issues
  between EPA the other federal land management agencies (FLMA), such as the USFS, BLM,
  Office of Surface Mining (OSM), National Park Service (NPS) and the US Fish and Wildlife
  Service. Based on initial discussions at these meetings, the agency subsequently reached a
  joint multi-agency agreement at the Lutrell Pit site in Montana. This joint agreement led to
  the creation of a single mine waste repository as opposed to the development of multiple mine
  waste dumps throughout the watershed. The use of a single repository resulted in improved
  water quality and reduced disturbance impacts. {See OIG response 6, Appendix F}

• The NMT has worked extensively, since 1998, with the Office of Prevention, Pesticides and
  Toxic Substances to expand the Toxics Release Inventory to include reporting of releases to
  the environment from the mining sector. The mine waste release information indicates that
  this sector is the largest single contributor to all releases to the environment. For example, use
  of this data has led to a Nevada Mining Association/EPA Region 9 voluntary program to
  reduce mercury releases from gold mines.

• Since 1998, the NMT has promoted sound decision making through the issuance of the
  following guidance documents:

  –    Region 10's 2003 guidance -- EPA and Hardrock Mining: A Source Book for Industry in
       the Northwest and Alaska. This handbook is the first Agency document, which provides
       a hands-on guide on how to manage water discharges from active mines located in high
       rainfall environments. The document promotes a multi-media and multi-program
       approach for the management of environmental effects from active mines.

  (1) ORIA’s 2003 guidance -- Potential for Radiation Contamination Associated With
      Mineral and Resource Extraction Industries. This is the first guidance document which
      recommends best management approaches to characterize the nature and extent of
      radiological contaminants at hardrock mining sites. The extent of radiation
      contamination other than that found at uranium mines was not well understood until the
      issuance of this document. This document has been widely distributed across EPA to
      regional Superfund staff, On-Scene Coordinators, NMT, and field RCRA and Water
      Office inspection staff, and has been provided on request to other State and Federal
      agencies involved in abandoned mine site investigations and cleanup. {See OIG
       response 7, Appendix F}
     Office of Solid Waste and Emergency Response 2001 guidance -- Abandoned Mine Site
Characterization and Cleanup Handbook. {See OIG response 8, Appendix F} This
document is the first Superfund document solely devoted to the most cost effective and state of
the art characterization and cleanup approaches for abandoned mine sites. Prior to the issuance
of this document, there was no Agency-wide guidance for use by the FLMA and states in their
decision making at AMLs.

• The Framework specifically noted that there was a need for additional research on mine waste
  issues. To meet this need, ORD sponsored a series of national hardrock mining technical
  conferences the included: Hardrock Mining Conference 1998, Mining Impacted Pit Lakes
  Workshop 2000, Mercury in Mining Technical Workshop 2000, Arsenic Technical Workshop
  2001, and the Hardrock Mining Conference 2002. In 2003, ORD created a Hazardous


                                                 35
  Substance Research Center for Mining (CSM, CSU, Montana Tech), whose sole purpose is to
  address agency directed mine waste research needs. The AMLT and ORD are co-sponsoring
  a Mining on Tribal Lands Conference in September 2003, which will bring together and
  Federal and State agencies to discuss mine waste issues unique to tribal lands. The
  proceedings from the technical conferences sponsored by ORD, since 1998, have become
  some of the most important technical information used by the EPA and other agencies for
  addressing mine sites.

  ORD has also provided on the ground technical (investigation and technology demonstration
  and selection) support at various mining sites including, but not limited to, the Elizabeth mine
  site in Vermont, the Luttrell Pit Site in Montana, the Rio Tinto and Anaconda mine sites in
  Nevada and the Leviathan Mine site in California. {See OIG response 9, Appendix F}

   As a result of reassessment of the Framework, OERR’s AMLT has been working with other
program offices and the regions for over a year to develop an implementation plan for addressing
hard rock mining sites. We expect to finalize this plan by December 2003. Such an effort would
fulfil your recommendation that the Agency develop a specific implementation strategy that
accounts for existing gaps in the Framework. {See OIG response 10, Appendix F}


   The report concluded that the Agency has limited regulatory control over active mining sites.
That is accurate with regard to the regulation of solid wastes from mining (the Bevill
amendment); however, the Agency has broader regulatory authority over mining activities under
the Clean Water Act (CWA) and the Clean Air Act. The Agency continues to assess how it can
better exercise its existing authorities to be environmentally preventive rather than rely on the
Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA).

   The report concludes that the Agency does not have enough information documenting the
nature and scope of the environmental impacts from mining. The Agency does not agree with
this conclusion. Furthermore, the Framework did not identify the collection of this type of
information as being critical to the implementation of its mining program. Nevertheless, the
Agency did in fact collect a significant body of information related to the environmental impacts
from mining under the Superfund Program, RCRA, OFA, ORIA, Office of Prevention,
Pesticides and Toxic Substances (OPPT) and OW. For example, the Superfund program has
collected a significant amount of environmental impact data at mine sites placed on the National
Priorities List (NPL) as well as information collected during remedial responses. RCRA updated
1985 and 1991 mining impact data in the Land Disposal Restriction Phase IV technical
background documents in 1998. The water program characterizes mining impacted water in its
routine issuance of mine site NPDES permits process and under its impaired waters program.
Furthermore, during OFA’s section 309 review of EIS’s for mine sites, they routinely evaluate
the potential for adverse environmental impacts at operating and proposed facilities. ORIA
dedicated significant efforts to characterize radiological impacts of mining on Navajo lands.
Finally, OPPT has collected a broad range of information on environmental releases from mine
sites through the Toxics Release Inventory (TRI) program.

   The Agency acknowledges, however, that our understanding of the number, location and
scope of high risk AMLs sites solely within our jurisdiction needs improvement. To address this
need, the AMLT is currently finalizing grants to Missouri and Virginia to identify priority AMLs


                                               36
in those states. The AMLT is working with the Regions to update the AML information
currently found in CERCLIS and has internally reviewed the status of State and other Federal
program AMLs inventories.

   The Agency acknowledges that we have not been successful in implementing the meetings of
the National Interagency Coordinating Committee (NICC). The Agency continues to believe
that the formation of a senior level group serving as a forum for overarching mining issues,
continues to have merit. The NMT will continue to interact with FLMA to further evaluate this
matter.

   EPA program management believes the Framework has utility and is being implemented as
outlined above. The programs agree that a strategic plan for implementation of regional aspects
of the Framework is appropriate and work is already underway on such a strategy. {See OIG
response 11, Appendix F}
  More detailed responses to the draft report conclusions and recommendations are provided in
Attachment 1.

  We appreciate the opportunity to comment on this draft report. Again, we are currently
implementing recommendations and action items laid out in the Framework. Furthermore, the
AMLT is currently developing a mining strategy which would address the Framework
implementation concerns noted in your report. Should you have any questions concerning the
comments, you may contact Shahid Mahmud at (703) 603-8789 or Johnsie Webster, OSWER
Audit Liaison, at (202)-566-1912.


Attachment




                                               37
                        ATTACHMENT 1 DETAILED RESPONSES

A. Primary Comments on Conclusions and Recommendations:

1. Implementation of the Framework has improved federal decisions and coordination regarding
   specific sites and has ultimately resulted in environmental improvement and reduced liability.
   Improvements in Federal decision making are as follows:

  •    The Agency, in1998, established a headquarters hardrock mining team composed of
       senior staff from most program offices that had mining jurisdiction. That group
       conducted 50 monthly conference calls for cross program and regional mining experts to
       coordinate mining issues. As an outgrowth of these calls, in 1999, the team provided
       technical support to EPA Region 4 during its inquiry into the nature and scope of mining
       impacts at the Copper Basin site in Tennessee and encouraged the development of
       guidance on site assessment of radioactivity at AMLs mine sites. Additionally, in
       regions without Regional Mining Teams (1,4,5, and 6), the NMT has provided technical
       guidance to assist these regions in addressing hardrock mining issues within their
       respective regions on an as needed basis. Finally, as a result of these calls, the team also
       recently assisted in the preparation of a detailed financial assurance evaluation for a
       mining EIS) at the Phoenix mine in Nevada which was another key goal of the
       Framework.

  •    Under the Framework, Regions 8, 9, and 10 formed regional mining teams and regional
       mining coordinators. For example, the Region 10 mining team has strengthened
       integration between the CWA and Superfund Programs, resulting in improved oversight,
       better decisions, and more flexibility at over a dozen active and inactive mining sites
       where both Superfund and CWA authorities are being used to achieve environmental
       improvements (e.g., CdA Basin, Hecla Grouse Creek, various active phosphate mines).
       Finally, better integration of Superfund and CWA authorities in Region 10 has influenced
       how we oversee active mining sites by focusing attention on long-term and underbonded
       environmental liabilities (e.g., Kinross DeLamar Mine, Thompson Creek Mine).

       Region 8, among other activities, has used the Superfund Site assessment program with
       the Water program to develop risk-based prioritizations of mine sites on a watershed
       basis (e.g., Left-hand Canyon, Animas's Total Maximum Daily Load, Willow Creek-
       Creede and French Gulch , Clear Creek, and Arrastra Gulch in Colorado).

  •    The team has organized and held agency-wide cross-program national technical mining
       meetings for our staff three times over the last five years and hosted the “fed fest,” where
       key federal agencies meet to coordinate their mining programs. The draft report’s
       inference that the Framework’s focus on coordination has no environmental value is not
       accurate, since coordination of our expertise and resources has, in fact, led to better cross
       program participation and decision making by our staff in mining issues throughout the
       country. {See OIG response 12, Appendix F}

  •    We believe that implementation of the Framework has led to improved federal decisions
       and coordination regarding specific sites that ultimately result in environmental
       improvement and reduced liability. For example, we believe the use of the recently
       released Region 10 EPA and Hardrock Mining: A Source Book for Industry in the

                                                38
       Northwest and Alaska (AKA the "Source Book") will result in a more protective mine
       plan, and ultimately environmental improvement and reduced environmental liability.
       Similarly, the development and use of the OSWER’s Abandoned Mine Site
       Characterization and Cleanup Handbook (March 2001), combined with improved
       training, will result in improved and streamlined decision-making at many abandoned
       mine sites.

2. The OIG report concluded that there was a lack of documentation on the success of the
   Framework. The Agency asserts that the report failed to identify the success of the
   Framework. {See OIG response 13, Appendix F} We believe that this failure is due
   to the use of a survey, which contains imprecise questions {See OIG response 14,
   Appendix F} and an evaluation limited by a 15 response sample size. The Agency
   questions how conclusions could be reached on a sample size that may not be statistically
   significant. {See OIG response 15, Appendix F}

  The OIG survey questions focused on EPA’s national level activities, while the report failed
  to focus on EPA Regional activities or on cooperation with others federal and state agencies.
  {See OIG response 16, Appendix F} An example of how the report failed to identify
  this type of cooperation with other agencies at AMLs is our activities in Montana. The Lutrell
  Pit project in Montana is a joint agreement between EPA, USFS, BLM and the State of
  Montana, which has resulted in combining mine waste into one location rather than several
  sites throughout the watershed. This interagency cooperation has resulted in improved water
  quality and reduced disturbance impacts by having a single site repository. {See OIG
  response 17, Appendix F}
3. The national mining team has met with stakeholders on an regular basis for the last six years.

4. As noted earlier, the Agency acknowledges that we have not been successful in
   implementing the meetings of the National Interagency Coordinating Committee (NICC).
   The Agency continues to believe that the formation of a senior level group, serving as a
   forum for overarching mining issues, continues to have merit. The NMT will continue to
   interact with Federal Land Management Agencies to further evaluate this matter.

5. The report gives the impression that the Agency’s statutes have limited regulatory reach to
   address mining. Under the Clean Air Act, the Agency was able to establish regulations for the
   control of radioactive mine waste from the phosphate industry. The CWA currently has
   regulatory authority over point source discharges from mines, but does not regulate non-point
   discharges. CERCLA has clear jurisdiction over all hazardous constituents found in mining
   waste. The Agency has limited authority under RCRA due to the Bevill Amendments. {See
  OIG response 18, Appendix F}




                                                39
B. Agency Implementation of Specific National Hardrock Mining Framework
Recommendations

Recommendation #1:

   Promote improvement of scientifically-based predictive tools (e.g., acid mine drainage and
metals mobility) used in evaluating the environmental impacts of mine sites.

Agency Action:

    The NMT continues to support the allocation of Agency resources for the Region 3 acid
rock drainage consortium. That consortium continues to address research related to acid rock
drainage and the Hardrock team continues to support this effort in any way it can. {See OIG
response 19, Appendix F}
Recommendation #2:

    Integrate NPDES permitting and NEPA site evaluation activities, where EPA has
jurisdiction.

Agency Action:

    The NMT continues to work directly with regional NPDES permit writers to fulfil their need
for mining related technical support. We have provided technical support to Regions 8, 9, and 10
related to NPDES or TMDL activities. For example, Region 10 has made a concerted effort to
integrate NEPA and NPDES permitting, along with other major State and Federal permits as
seen in the recently released Pogo Gold Mine Draft Environmental Impact Statement (DEIS).
EPA is the lead agency and was able to include draft NPDES and State solid waste, access and
land use permits in its document.

Recommendation #3:

    Promote an adequate consideration of environmentally protective standards and preferred
alternatives in EISs.

Agency Action:

    The Framework has led to improvements in EPA’s NEPA compliance and section 309 EIS
review process at mine sites. For example, the use of a multi-disciplinary mining team in
Region 10, with staff that had experience in all phases of mining (from permitting, to operation,
to cleanup), has resulted in comprehensive and detailed comments and recommendations on
every EIS for proposed projects we have evaluated in the past five years (e.g., Kensington,
Formation Capital, several large phosphate mines, Thompson Creek, and others).




                                                40
Recommendation #4

   Evaluate the adequacy of current waste management practices and promote standards of
practice that achieve risk-based, long-term environmental goals.

Agency Action:

   The AMLT is currently developing guidance on the proper design and operation of tailings
ponds and waste rock piles as well as a guidance on how to properly calculate water balances at
mine sites. {See OIG response 20, Appendix F}

Recommendation #5:

   Promote utilization of a geographic/risk-based approach to prioritize inactive/abandoned
mine cleanup.

Agency Action:

    Region 8's current geographic initiative grants program, focusing on Mining Headwaters, is a
result, in part, of the Framework. Under this program many new and innovative techniques for
avoiding or mitigating impacts from mining were developed ( for example, the Mary Murphy
Mine, demonstrated new technologies for evaluating and implementing in-mountain diversions
to prevent pollution from occurring). {See OIG response 21, Appendix F}

Recommendation #6:

   Use targeted enforcement/compliance approaches to better focus resources on highest
priority operations.

Agency Action:

   The NMT has provided technical support to enforcement actions at mines in Utah, California,
Alaska, and Arizona.

Recommendation #7:

   Work with the Army Corps of Engineers to consistently define “fill” and to apply the waste
treatment exclusion.

Agency Action:

   The OW issued a final CWA 404 rule on May 9, 2002 (67 Fed. Reg. 31129). This rule was
developed jointly with the US Army Corps of Engineers (USACE) and has resulted in a single
consistent definition of fill material. {See OIG response 22, Appendix F}




                                               41
Recommendation #8:

   Prepare guidance and provide training on CERCLA site assessment, investigation, and
screening tools.

Agency Action:

   The AMLT issued the Abandoned Mine Lands Site Characterization and Clean-up
Handbook in March 2001, which directly meets this goal. ORIA has recently issued guidance,
Potential for Radiation Contamination Associated with Mineral and Resource Extraction
Industries, which provides a means for staff to determine if sites are potentially radioactive.

Recommendation #9:

   Compile and update information regarding grants available to fund remediation projects and
distribute to stakeholders.

Agency Action:

    The AMLT is currently compiling a list of available Federal and State funding mechanisms
for remediation of mine sites. As soon as this effort is complete, this information will be made
publicly available. To further aid in the dissemination of this type of information, the AMLT is
also developing a AMLT website. The AMLT is currently finalizing grants with the States of
Missouri and Virginia to better characterize AMLs. These grants will be issued by
September 2003. {See OIG response 23, Appendix F}

Recommendation #10:

   Encourage development of cost-effective environmental control technologies for both active
and inactive mine sites.

Agency Action:

   The NMT participates in and supports TIO’s pilot remediation evaluations and also supports
the ongoing EPA’s Superfund Innovative Technology Evaluation (SITE) program within OERR.
The Hardrock team worked with ORD in ORD’s creation, in 2002, of a Hazardous Substance
Research Center, run by the Colorado School of Mines, to focus research on the remediation of
active and abandoned mines. {See OIG response 24, Appendix F}




                                               42
Recommendation #11:

   Evaluate the adequacy of mining EISs with regard to the provision of financial assurance for
long-term support of environmental management systems.

Agency Action:

   The NMT routinely provides technical support to EPA regional EIS review teams. The team
contributed significantly in the preparation of comments on the proposed Phoenix gold mine in
Nevada, specifically related to the need for financial assurance at this site. The Mining
Framework, related meetings and training increased EPA’s ability to participate early in the EIS
process for large mine projects. EPA’s comments, pursuant to its 309 review authority, are now
more nationally consistent due to increased access to staff with technical mining expertise on
issues such as acid rock drainage (ARD), mine design, and financial assurance. Examples of
mine site EISs that utilized NMT expertise include: Kinross-DeLamar Mine, Thompson Creek
Mine, Phoenix Mine, Pogo Gold Mine, Kensington, and Formation Capital.

Recommendation #12:

   Encourage reprocessing of historic mine wastes in conjunction with or as a component of site
cleanup.

Agency Action:

   The NMT worked with the OW in its development of a coal remining effluent standard issued
two years ago. (40 CFR 434 Coal Remining Effluent Guidelines). {See OIG response 25,
Appendix F}
Recommendation #13:

   Develop or support legal/administrative mechanisms to encourage implementation of
environmentally beneficial response actions at mine sites (e.g., Good Samaritan).

Agency Action:

    The NMT, in conjunction with OW, is currently reviewing various Congressional approaches
to passing a Good Samaritan bill to encourage voluntary cleanups of mines. {See OIG
response 26, Appendix F}




                                               43
Recommendation #14:

    Work cooperatively to develop standardized methods for characterizing/analyzing
environmental concerns, predicting geochemical changes, and establishing performance
standards.

Agency Action:

   In 2001, the Agency issued the OERR Abandoned Mine Site Characterization and Cleanup
Handbook, which includes methods to better characterize mine wastes and their associated
impacts. Region 10 has recently issued its Hardrock Mining Sourcebook to promote better
characterization and analyses of mining wastes. For the last five years, Regions 3 and 8, as well
as ORD, have participated in the Acid Drainage Technology Initiative which promotes the
characterization, prediction, and clean-up of acid mine drainage.




                                               44
                                                                                                    Appendix F

OIG Response to Agency Comments on Draft Report

Item                                      Agency Comment / OIG Response

{1}    In reviewing the draft, we are concerned that there is a misunderstanding as to the goals of the
       National Hardrock Mining Framework. . . . When the Agency issued the Framework in 1997,
       we believed that it was self-implementing and as a consequence resulted in the: 1) coordination
       of agency-wide technical skill and financial resources to assure better decision making; . . . and
       4) coordination of mine waste issues with other federal agencies.

       There is no misunderstanding regarding the goals of the Framework. We cited the goals presented in the
       Framework indicating that it was designed to help EPA implement a multi-media, multi-statute approach
       to dealing with the environmental concerns posed by hardrock mining and improving environmental
       protection, using resources more efficiently, and promoting fiscal responsibility.
       We do not understand how the Framework was considered to be “self-implementing.” The Framework
       contained 14 recommendations and 10 implementation actions that required significant efforts by the
       Agency.
       Regarding agency-wide coordination of technical skills and financial resources, two major concerns of
       many of those surveyed were a lack of intra-agency coordination and a lack of financial resources to
       effectively implement the Framework.
       In reference to coordination of mine waste issues with other Federal agencies, little, if anything, has been
       done to support the NICC, as noted in the Agency’s response to our draft report.

{2}    . . . EPA Region 7 is cooperatively working with US DOT (U.S. Department of Transportation) and
       Missouri DOT to reuse mine waste materials (chat) from the Jasper County Superfund site as
       interstate highway roadbed material.

       Region 7 indicated in its response to our survey questionnaire that it does not use the Hardrock Mining
       Framework. The Agency needs to indicate when Region 7 began working with the U.S. and Missouri
       Departments of Transportation to reuse mine waste materials, and report on the status of this effort.

{3}    The CERCLA Program has addressed or is in the process of addressing 87 AML (Abandoned Mine
       Lands) sites on the National Priorities List. The program has also undertaken hundreds of removal
       actions at AMLs sites. Since 1998, the NMT has provided technical input at over a dozen active and
       inactive mining sites. For instance, the NMT and the AMLT (Abandoned Mine Lands Team) have
       provided expertise and input to the Superfund alternative site initiative at the Copper Basin Mine
       site in Tennessee and the Rio Tinto and Anaconda Mine Sites in Nevada.

       The point is that there are a large number of abandoned hardrock mine sites on the National Priorities List
       and cleanup will be very costly. Technical assistance provided by the NMT and AMLT at the Copper
       Basin Mine site in Tennessee was not cited in the responses to our survey questionnaire or during
       interviews, although we asked for specific site examples. The Rio Tinto Mine and Anaconda sites in
       Nevada were mentioned in one survey response, but only in the context that the sites had been proposed
       for listing.




                                                        45
Item                                      Agency Comment / OIG Response

{4}    . . . Since 1999, Regions 8 & 10 mining teams meet annually with the Bureau of Land Management
       (BLM), US Forest Service (USFS), Mining Industry, Tribes and States to coordinate mining
       activities on a cross program regional basis in order to better coordinate federal decision making at
       mine sites.

       Our survey data do not support this.

{5}    As a natural outgrowth of the Framework, the NMT organized and convened interagency national
       mining meetings (“Fed Fest”) every three years since 1998 to better coordinate each agency’s
       mining programs.

       This information was not provided to us in survey responses or during interviews.

{6}    . . . the agency subsequently reached a joint multi-agency agreement at the Lutrell Pit site in
       Montana. This joint agreement led to the creation of a single mine waste repository as opposed to
       the development of multiple mine waste dumps throughout the watershed. . . resulted in improved
       water quality and reduced disturbance impacts.

       The Lutrell Pit site in Montana was not cited as an example of a site that benefitted from implementation
       of the Mining Framework in the responses provided to our survey questionnaire.

{7}    ORIA’s (Office of Radiation and Indoor Air’s) 2003 guidance – Potential for Radiation
       Contamination Associated With Mineral and Resource Extraction Industries. This is the first
       guidance document which recommends best management approaches to characterize the nature
       and extent of radiological contaminants at hardrock mining sites. . . . This document has been
       widely distributed across EPA. . . .

       The Office of Radiation and Indoor Air’s 2003 guidance was never mentioned in the responses to our
       survey questionnaire or during discussions with NMT members. The Office of Air and Radiation, which
       includes the Office of Radiation and Indoor Air, was one of two headquarters offices that did not respond
       to the OIG survey.

{8}    Office of Solid Waste and Emergency Response 2001 guidance – Abandoned Mine Site
       Characterization and Cleanup Handbook. This document is the first Superfund document solely
       devoted to the most cost effective and state of the art characterization and cleanup approaches for
       abandoned mine sites. Prior to the issuance of this document, there was no Agency-wide
       guidance. . . .

       We acknowledged the Office of Solid Waste and Emergency Response’s Abandoned Mine Site
       Characterization and Cleanup Handbook in the report, to note a positive action taken.




                                                      46
Item                                     Agency Comment / OIG Response

{9}    The Framework specifically noted that there was a need for additional research on mine waste
       issues. To meet this need, ORD (Office of Research and Development) sponsored a series of
       national hardrock mining technical conferences . . . The proceedings from the technical conferences
       sponsored by ORD, since 1998, have become some of the most important technical information used
       by the EPA and other agencies for addressing mine sites. . .

       We did not receive specific information on the activities the Office of Research and Development is
       involved in relating to the Framework. The Office of Emergency and Remedial Response indicated it was
       working with the Office of Research and Development in a general way to explore and identify tools to
       evaluate impacts from mine sites. At the time of our survey, the Office of Research and Development
       was not identified by EPA’s National Mining Team as an office to contact regarding the Framework.

{10}   As a result of reassessment of the Framework, OERR’s (Office of Emergency and Remedial
       Response’s) AMLT has been working with other program offices and the regions for over a year to
       develop an implementation plan for addressing hard rock mining sites. We expect to finalize this
       plan by December 2003. . .

       During fieldwork, we received no information that the Office of Emergency and Remedial Response
       (recently renamed the Office of Superfund Remediation and Technology Innovation) had been working
       with other program offices for more than a year to develop an implementation plan for addressing
       hardrock mining sites. On the contrary, many respondents, including Office of Emergency and Remedial
       Response staff, indicated that little had been done to implement the existing Mining Framework due to
       lack of management support and dedicated resources. We encourage the development and completion of
       a framework implementation plan.

{11}   EPA program management believes the Framework has utility and is being implemented as
       outlined above. The programs agree that a strategic plan for implementation of regional aspects of
       the Framework is appropriate . . .

       See comment {10}.

{12}   The draft report’s inference that the Framework’s focus on coordination has no environmental
       value is not accurate, since coordination of our expertise and resources has, in fact, led to better
       cross program participation and decisionmaking by our staff in mining issues throughout the
       country.

       We reported that there was a lack of internal and external Agency coordination among key stakeholders in
       hardrock mining, which was a major impediment to effective implementation of the Framework.

{13}   The OIG report concluded that there was a lack of documentation on the success of the
       Framework. The Agency asserts that the report failed to identify the success of the Framework.

       We asked the survey respondents to provide specific examples of successes that could be attributed to
       implementation of the Framework, including site names whenever possible. We received some specific
       information on accomplishments, which we cited in the report, but the information provided was not
       extensive. Several respondents did not provide any examples of accomplishments that resulted from
       Framework implementation.




                                                      47
Item                                     Agency Comment / OIG Response

{14}   We believe that this failure is due to the use of a survey, which contains imprecise questions . . .

       At the time we started our work, the Agency had no available information regarding implementation of its
       Hardrock Mining Framework. The only feasible option for the OIG was to survey and interview those
       knowledgeable within and outside the Agency. The first section of the survey included overall questions
       related to accomplishments, gaps in the Framework, implementation barriers, and ideas for improvement.
       The second section included questions regarding the status of actions taken on Framework
       recommendations and action items, and were taken from the Framework. We involved relevant EPA staff
       and senior managers at all stages of the survey development. We did not receive information that the
       questions were imprecise. At our request, in April 2002, a co-chair of EPA’s NMT provided a list of the
       NMT members in EPA headquarters and regional offices who were the most knowledgeable on hardrock
       mining issues, the implementation of the Framework, and any results attributable to it. In May 2002, we
       provided our draft survey questions for review and comment to NMT members in EPA Regions 8, 9, and
       10, where the vast majority of hardrock mining in the United States occurs. These individuals were also
       identified by a co-chair of the NMT as those who could provide the most useful feedback on our draft
       survey. These NMT members indicated that the questions were good, specific, and “well thought out.”
       The Assistant Administrator for the Office of Solid Waste and Emergency Response was notified by
       memorandum on the survey’s contents and purpose before the survey was implemented.

{15}   . . . and an evaluation limited by a 15 response sample size. The Agency questions how conclusions
       could be reached on a sample size that may not be statistically significant.

       We believe our methodology and conclusions were appropriate. It should be noted that distribution of our
       survey was not based on a statistical sample. Rather, we distributed the survey to 9 of the 10 EPA
       regions, plus the 6 key EPA headquarters offices that are involved with hardrock mining. Therefore, we
       believe our conclusions are in fact highly meaningful and appropriate. The Agency’s concerns regarding
       statistical significance are not clear.

{16}   The OIG survey questions focused on EPA’s national level activities, while the report failed to focus
       on EPA Regional activities or on cooperation with other federal and state agencies.

       The document we evaluated is the Agency’s National Hardrock Mining Framework. Nonetheless, we
       considered both headquarters and regional activities, since both are required for successful
       implementation of the Framework. We distributed our survey to knowledgeable representatives in nine
       EPA regions and six headquarters offices. We also contacted other Federal agencies. The general
       consensus was that there was of lack of interagency coordination among EPA regional and headquarters
       offices and with other Federal agencies.

{17}   The Lutrell Pit project in Montana is a joint agreement between EPA, USFS (U.S. Forest Service),
       BLM (Bureau of Land Management), and the State of Montana, which has resulted in combining
       mine waste into one location rather than several sites throughout the watershed.

       We received several survey responses from staff in Region 8. However, no one mentioned in survey
       responses or during discussions the joint agreement between EPA, U.S. Forest Service, Bureau of Land
       Management, and the State of Montana to consolidate waste at one location for the Lutrell Pit project.
       Our data do not indicate that this action can be attributed to the Framework.




                                                      48
Item                                      Agency Comment / OIG Response

{18}   The report gives the impression that the Agency’s statutes have limited regulatory reach to address
       mining. Under the Clean Air Act, the Agency was able to establish regulations for the control of
       radioactive mine waste. . . CWA (Clean Water Act) currently has regulatory authority over point
       source discharges from mines, . . . CERCLA has clear jurisdiction over all hazardous
       constituents. . . . The Agency has limited authority under RCRA due to the Bevill Amendments.

       The Agency assumed no legislative changes were needed to implement the Framework. This assumption
       is questionable. Much of the responsibilities for administering environmental laws that are preventive in
       nature (e.g., Clean Water Act, Clean Air Act) have been delegated to the States. Moreover, the Agency
       fails to acknowledge that some States have not been that effective in administering these laws, as noted in
       the August 2001 National State Auditors Association report and the March 2002 report issued by the
       Legislative Auditor for the State of Louisiana, which were cited in our report. On Federal lands, most
       authority rests with the Federal land management agencies, not EPA.

{19}   The NMT continues to support the allocation of Agency resources for the Region 3 acid rock
       drainage consortium. . . .

       Region 3 provided a two-paragraph response to our survey stating that they were not involved in hardrock
       mining. The Region 3 acid rock drainage consortium deals with coal mining, not hardrock mining.

{20}   The AMLT is currently developing guidance on the proper design and operation of tailings ponds
       and waste rock piles as well as guidance on how to properly calculate water balances at mine sites.

       During our fieldwork, we did not receive any information that the AMLT is currently developing
       guidance on the proper design and operation of tailings ponds and waste rock piles. The Agency needs to
       indicate when this effort began and when it is expected to be completed.

{21}   Region 8's current geographic initiative grants program, focusing on Mining Headwaters, is a
       result, in part, of the Framework. . . .

       We did not receive any information from Region 8 that there is an initiative grants program, focusing on
       Mining Headwaters, as a result of the Framework.

{22}   The Office of Water issued a final Clean Water Act 404 rule on May 9, 2002 (67 Fed. Reg. 31129).

       We acknowledge the final Clean Water Act 404 rule issued by the Office of Water in the final report.

{23}   The AMLT is currently compiling a list of available Federal and State funding mechanisms for
       remediation of mine sites. . . . the AMLT is also developing a AMLT website. The AMLT is
       currently finalizing grants with the States of Missouri and Virginia to better characterize
       Abandoned Mine Lands. . .

       The Agency needs to indicate when the AMLT website will be available for providing information on
       Federal and State funding mechanisms for mine site remediation.




                                                       49
Item                                    Agency Comment / OIG Response

{24}   . . . The Hardrock team worked with ORD (Office of Research and Development) in ORD’s
       creation, in 2002, of a Hazardous Substance Research Center, run by the Colorado School of Mines,
       to focus research on the remediation of active and abandoned mines.

       During our fieldwork, we were not provided any information regarding the NMT working with the Office
       of Research and Development to create a Hazardous Substance Research Center in conjunction with the
       Colorado School of Mines.

{25}   The NMT worked with the OW (Office of Water) in its development of a coal remining effluent
       standard issued two years ago. (40 CFR 434 Coal Remining Effluent Guidelines).

       Our evaluation focuses on hardrock mining, while 40 CFR 434 Coal Remining Effluent Guidelines refers
       to coal mining.

{26}   The NMT, in conjunction with OW (Office of Water), is currently reviewing various congressional
       approaches to passing a Good Samaritan bill to encourage voluntary cleanup of mines.

       During our fieldwork, we were informed that little was being done at EPA regarding passage. The
       Agency needs to indicate when the process will be completed for reviewing various Congressional
       approaches to passing a Good Samaritan bill to encourage voluntary cleanups of mines.




                                                     50
                                                                           Appendix G

                                   Distribution

Assistant Administrator for Solid Waste and Emergency Response (5101T)
Assistant Administrator for Enforcement and Compliance Assurance (2201A)
Assistant Administrator for Water (4101M)
Assistant Administrator for Air and Radiation (6101A)
Agency Followup Official (2710A)
Agency Followup Coordinator (2724A)
Audit Liaison, Office of Solid Waste and Emergency Response (5103T)
Regional Administrators (Regions 1 through 10)
Inspector General (2410)




                                           51
